HHS/OIG, Audit - "Review of Louisiana's Accounts Receivable System for
Medicaid Provider Overpayments," (A-06-06-00036)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Louisiana's Accounts Receivable System for Medicaid Provider Overpayments," (A-06-06-00036)
July 3, 2006
Complete
Text of Report is available in PDF format (438 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review was
part of a multistate audit.  Our objective was to determine whether Louisiana
(the State) reported Medicaid provider reclaiming adjustments and overpayment
adjustments in accordance with Federal requirements.  The State did not report all Medicaid provider reclaiming
adjustments and overpayment adjustments in accordance with Federal requirements.
Fourteen of the 18 reclaiming adjustments that we reviewed, totaling $1,137,456
($836,391 Federal share), were improper.  In addition, the State did not report
seven overpayment adjustments totaling approximately $4.03 million ($2.87
million Federal share) on the Quarterly Medicaid Statement of Expenditures for
the Medical Assistance Program, Form CMS-64 report  (CMS-64s) for the quarters
in which the 60-day discovery periods ended.  This resulted in a potentially
higher interest expense to the Federal Government of approximately $12,419.
We
recommended that the State:  (1) refund to the Federal Government $836,391 in
improper reclaiming adjustments; (2) revise reporting and writeoff procedures to
ensure that improper reclaiming adjustments are not included on the CMS-64; (3)
revise written policies and procedures to ensure that future overpayments are
reported timely on the CMS-64s, thereby
mitigating the potentially higher interest expense to the Federal Government;
and (4) establish and implement written policies and procedures, and monitor new
policies and procedures already implemented by the Medicaid Fraud Control Unit,
to ensure coordination among all responsible State offices so that future
reclaiming adjustments and overpayment adjustments are reported in accordance
with Federal requirements.  The State disagreed with our findings that it did
not report 14 of the 18 overpayment reclaiming adjustments  and asserted that the recommended
refund of $836,391 should be reduced.  It agreed with the remaining recommendations.